<html>
<title> - EPA'S BROWNFIELDS PROGRAM: EMPOWERING CLEANUP AND ENCOURAGING ECONOMIC REDEVELOPMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


EPA'S BROWNFIELDS PROGRAM: EMPOWERING CLEANUP AND ENCOURAGING ECONOMIC 
                             REDEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2016

                               __________

                           Serial No. 114-140
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                __________
                                
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-755 PDF                   WASHINGTON : 2016                      
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 7_____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Mississippi            PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     2
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
    Prepared statement...........................................     5

                               Witnesses

Mathy Stanislaus, Assistant Administrator, Office of Land and 
  Emergency Management, Environmental Protection Agency..........     6
    Prepared statement...........................................     9
    Answers to submitted questions...............................    96
J. Meade R. Anderson, Chair, Brownfields Focus Group, Association 
  of State and Territorial Solid Waste Management Officials......    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   102
J. Christian Bollwage, Mayor, City of Elizabeth, New Jersey, on 
  behalf of the U.S. Conference of Mayors........................    53
    Prepared statement...........................................    55
    Answers to submitted questions \1\...........................   107
Clark Henry, Owner, CIII Associates, LLC.........................    64
    Prepared statement...........................................    66
    Answers to submitted questions...............................   108
Amy E. Romig, Partner, Plews Shadley Racher & Braun, LLP.........    73
    Prepared statement...........................................    75
    Answers to submitted questions...............................   111
Veronica Eady, Vice President and Massachusetts Director, 
  Conservation Law Foundation....................................    83
    Prepared statement...........................................    85

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF18/
  20160421/104837/HHRG-114-IF18-Wstate-BollwageJ-20160421-U1.pdf.

 
EPA'S BROWNFIELDS PROGRAM: EMPOWERING CLEANUP AND ENCOURAGING ECONOMIC 
                             REDEVELOPMENT

                              ----------                              


                        THURSDAY, APRIL 21, 2016

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, McKinley, 
Johnson, Bucshon, Tonko, Schrader, Green, Capps, McNerney, and 
Pallone (ex officio).
    Staff present: Will Batson, Legislative Clerk; Rebecca 
Card, Assistant Press Secretary; Dave McCarthy, Chief Counsel, 
Environment and the Economy; Tina Richards, Counsel, 
Environment and the Economy; Chris Sarley, Policy Coordinator, 
Environment and the Economy; Dan Schneider, Press Secretary; 
Dylan Vorbach, Deputy Press Secretary; Jacqueline Cohen, 
Democratic Senior Counsel; Timia Crisp, Democratic AAAS Fellow; 
Jean Fruci, Democratic Policy Advisor, Energy and Environment; 
Tiffany Guarascio, Democratic Deputy Staff Director and Chief 
Health Advisor; Rick Kessler, Democratic Senior Advisor and 
Staff Director, Energy and Environment; Alexander Ratner, 
Democratic Policy Analyst; Timothy Robinson, Democratic Chief 
Counsel; Andrew Souvall, Democratic Director of Communications, 
Outreach, and Member Services; and Tuley Wright, Democratic 
Policy Advisor, Energy and Environment.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I want to call the hearing to order and 
recognize myself for 5 minutes for an opening statement, 
although I am not going to take it. I am going to ask unanimous 
consent that all opening statements will be submitted for the 
record.
    Brownfields is an important issue for me. I know it is 
important for the ranking member. I know it is important for my 
colleague from Oregon. I think it is something that we can do. 
We have just got to get these old sites reclaimed, back into 
use. I think the testimony today will highlight that this is 
something everybody wants to do and move expeditiously.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The term brownfields usually refers to abandoned or closed 
commercial or industrial properties that may be contaminated 
because of their prior use. These sites, however, often have 
significant redevelopment potential. The economic redevelopment 
of these sites means very good things for the local community--
things like jobs, an improved tax base, and being able to rid 
communities of blighted properties and clean up entire 
neighborhoods. According to EPA, the Agency's Brownfields 
Program has grown into a proven, results-oriented program that 
has changed the way contaminated property is perceived, 
addressed, and managed. This is demonstrated by the numbers. As 
of March 1, 2016, EPA's Brownfields Program has assessed 23,932 
sites and leveraged 108,924 jobs. The program has also 
leveraged almost $21 billion for cleanup and redevelopment. We 
will hear today from Mr. Stanislaus more about these statistics 
and why EPA believes the program works and maybe find out from 
him whether there are things we could do to improve the 
program.
    The EPA Brownfields Program is also an important tool used 
by States, local governments, and private stakeholders to clean 
up under-used or abandoned industrial and commercial properties 
and to return them to beneficial use. Cleaning up these sites 
and returning them to productive use is great for the economy 
because brownfields grants can be directly leveraged into jobs, 
into additional redevelopment funds, and into increased 
residential property values.
    I have a number of brownfield sites in my district, ranging 
from former family gas stations and the local corner dry 
cleaners to a former plating company and a former hospital. 
Throughout my district sites are being redeveloped to create 
greenspace and to return areas to commercial use. My colleague, 
the ranking member Mr. Pallone, has said many times how 
important it is that we take a look at the Brownfields Program. 
I agree. We need to see what works--and there is a lot to like 
about the program--but we find that there are always areas we 
can improve upon.
    On that note, we also welcome our second panel who will 
walk us through how public and private stakeholders can work 
together in pursuit of a common redevelopment goal and give us 
their perspectives on the Brownfields Program.
    We welcome Mr. Anderson from the State of Virginia who is 
here on behalf of a good friend of the subcommittee, ASTSWMO. 
Mr. Anderson will fill us in on the State role in brownfields 
redevelopment.
    Also joining us today is Mayor Bollwage, from Elizabeth, 
New Jersey. Mayor Bollwage has been very involved in his city's 
redevelopment. Mr. Henry is here with us to give his 
perspective as a consultant who does urban planning and 
redevelopment and as someone who used to run the Brownfields 
Program in a major U.S. city.
    We'll hear from an environmental lawyer, Ms. Romig, who 
understands the legal ramifications and hurdles facing clients 
who may be interested in pursuing redevelopment. And last, but 
not least, we will hear from Ms. Eady, also a lawyer, who works 
for the Conservation Law Foundation.

    Mr. Shimkus. With that, I am going to yield back my time 
and yield to the ranking member for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chairman. Good morning. Thank you 
for holding this important hearing on EPA's Brownfields 
Program. I know that this is an issue that Ranking Member 
Pallone and I are very passionate about. And I believe that 
based on previous experiences in State and local government, it 
is an issue that bears much relevance.
    I am proud to represent part of the Erie Canal corridor in 
New York State, which includes my home town of Amsterdam. This 
was a gateway toward western expansion. Mill towns popped up 
along the Mohawk River helping to usher in our Nation's 
industrial revolution and create jobs.
    Sadly, many of these manufacturers are gone, but the 
baggage from industrialization, including contaminated land, 
still remains. While that is the story from my home county, I 
want to stress that brownfields are not unique to one region or 
type of community. They can be found in every congressional 
district, urban or rural.
    The EPA found that approximately 104 million people live 
within 3 miles of a brownfield site that received EPA funding, 
including 35 percent of all children in the United States under 
the age of 5. Brownfields cleanup is critical for environmental 
revitalization and economic redevelopment efforts. And 
undeniably, EPA's program has been incredibly successful. EPA 
grant recipients use funding to inventory success and conduct 
cleanup at sites. The program administers two separate types of 
grants: direct financial assistance for the assessment, and 
clean up of properties and financial assistance to States to 
aid them in carrying out their own cleanup programs.
    EPA will discuss some of the astonishing statistics on the 
success of the program. Since Congress passed a Small Business 
Liability Relief and Brownfields Revitalization Act in 2002. 
Over 44,000 acres of idle land have been made ready for 
productive use. Over 106,000 jobs and $23.3 billion have been 
leveraged, cleaning up brownfields properties leads to 
residential property value increases of some 5 to 11.5 percent. 
And $1 of the EPA's brownfields funding leverages between $17 
and $18 in other public and private funding. EPA's research has 
shown that redeveloping a brownfield instead of a greenfield 
has significant environmental benefits in addition to limiting 
sprawl and cleaning up blighted properties who are dealing with 
the program that has produced tremendous results. Revitalizing 
a brownfield can help a distressed community's economic 
comeback, and people are beginning to recognize that 
brownfields represent opportunities. But despite these 
successes, the program can be improved. This authorization 
expired in 2006. There are reforms that can give grant 
recipients more flexibility. We can encourage more support, 
capacity building and technical assistance for both small and 
disadvantaged communities. We can make it easier for nonprofit 
stakeholders to get involved. We couldn't put more emphasis on 
regional planning to make this program even more effective.
    We will hear about the need for more funding, but both 
competitive grants and grants to States is required. More and 
more qualified applications must be rejected each year because 
of insufficient funding. We will hear about the need to 
increase the cap on individual projects. Many remaining sites 
are increasingly complex and will require more funding to 
remediate properly.
    Today's caps of $200,000 for assessment and cleanup grants 
is just not enough in many cases. But despite these potential 
improvements, I want to stress that this program has been 
incredibly successful and that is according to representatives 
from all levels of Government from urban and rural communities 
and from nonprofits and private sector developers. There is 
strong consensus on the steps that need to be taken to make 
this program work even better. And there is bipartisan support, 
I believe, for the program in Congress. This is a winning 
recipe to get a reauthorization done. I hope this is something 
we can continue to work on this year. For so many distressed 
communities and neighborhoods, a brownfield stands in the way 
of economic comeback. We can help provide even more 
opportunities with just a few widely supported adjustments to 
this critical program. I look forward to hearing more about the 
EPA's Brownfields Program and its role in economic 
redevelopment, planned and sustainable land reuse and 
environmental justice.
    With that, Mr. Chair, I yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
looks to the majority side, seeing no one interested in giving 
an opening statement, I will turn to the ranking member of the 
full committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman for calling this 
hearing. I would also like to thank the witnesses for being 
here, particularly Mayor Chris Bollwage from my home State of 
New Jersey, who I believe will be testifying on the second 
panel.
    When we passed the original brownfields bill in the 107th 
Congress, I was the ranking member of the subcommittee and the 
lead Democrat on the legislation, which was one of the only 
pieces of environmental legislation that I can remember 
President George W. Bush ever signing into law.
    We worked in a bipartisan manner then with my Republican 
chairman, the late Paul Gillmor of Ohio. And I would like to 
continue this bipartisan effort as we work to improve on the 
program, and assure the States and local communities have the 
resources they need to revitalize their communities. I hope 
that my colleagues on the committee will join me in working to 
improve this important program.
    The Brownfields Program has been an incredibly important 
tool for protecting public health and spurring economic growth 
in New Jersey and throughout the country. Brownfields 
properties are a blight on the community. Though these sites do 
not warrant listing on the national priority list like 
Superfund sites, these contaminated properties can have 
negative environmental and economic impacts.
    The success of this program can't be understated. Removing 
public health hazards by cleaning up contaminated sites is 
incredibly important for the surrounding communities. Since the 
program's inception, thousands of contaminated sites have been 
remediated, allowing communities to create new developments 
like housing and parks.
    EPA has found that cleaning up underutilized or abandoned 
brownfields properties reduces health risks, decreases 
pollution, and reduces stormwater runoff. Aside from the 
environmental benefits, revitalizing these properties can 
result in crime reduction, job creation and boosts in the local 
economy.
    However, as successful as the Brownfields Program has been, 
there is still so much important cleanup work to be done. I 
expect we will hear from today's witnesses about the staggering 
number of brownfields properties in need of remediation and the 
increased complexity of the remaining sites.
    Many stakeholders have indicated a need for increased 
funding and flexibility to allow States and local communities 
to use their resources effectively to address the increased 
complexity of these cleanups. Through multipurpose grants, 
regional planning and increased caps for individual grants, 
communities can start to tackle this problem.
    Communities also need assistance with capacity building. 
Through job training, technical assistance, and education and 
outreach, communities can leverage Federal and State 
assistance, engage with developers in the remediation process, 
and take ownership of their communities' revitalization. We 
should be equipping communities with the tools they need to 
ensure successful cleanups.
    Despite the growing need for resources and broad support on 
both sides of the aisle, this successful program has never been 
reauthorized. While the program has continued to receive 
appropriations, unfortunately, funding levels have declined. 
Furthermore, the Federal tax incentive has lapsed. These are 
incredibly useful tools that encouraged developers to remediate 
sites by allowing them to deduct the cost of cleanups.
    So we can't continue to expect the same success from a 
program that is underfunded and lacking the necessary tools to 
be effective. As we work to determine how we can strengthen the 
program, we should ensure that funding is part of the 
conversation, and we should also support cleanup efforts to 
ensure that these efforts are adequately funded.
    So I appreciate today's opportunity to learn more about how 
we can increase the effectiveness of this program. As many of 
you know, I previously--I mentioned I introduced legislation to 
reauthorize appropriations and create the needed flexibility 
for the Brownfields Program. My legislation aimed to address 
some of the concerns that have been expressed by stakeholders, 
including increased capacity building, more flexibility in the 
use of grants and increased caps on individual grants. I would 
like to reintroduce an updated version of that bill soon, and I 
hope that we can work together to get bipartisan brownfields 
legislation signed into law this year.
    I guess I can't help but mention, tomorrow is Earth Day, 
and so I think it is particularly great, both Chairman Shimkus 
and Mr. Tonko, that we are having the hearing today. I fully 
intend to talk about brownfields when I go around the district 
tomorrow and over the weekend at our various Earth Day events. 
Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I want to thank the chairman for calling this hearing on 
EPA's Brownfields Program. I would also like to thank the 
witnesses for being here, particularly Mayor Chris Bollwage 
(``Bowl wage'') from my home State of New Jersey, who testified 
before this committee back in 2001 in support of our bipartisan 
effort to enact legislation to address brownfields sites.
    When we passed the original brownfields bill in the 107th 
Congress, I was the ranking member of the subcommittee and the 
lead Democrat on the legislation, which was one of the only 
pieces of environmental legislation that I can remember 
President George W. Bush ever signing into law. I worked in a 
bipartisan manner then with my Republican chairman, the late 
Paul Gillmor of Ohio, and I would like to continue this 
bipartisan effort as we work to improve on the program and 
ensure that States and local communities have the resources 
they need to revitalize their communities. I hope that my 
colleagues on the committee will join me in working to improve 
this important program.
    The Brownfields Program has been an incredibly important 
tool for protecting public health and spurring economic growth 
in New Jersey and throughout the country. Brownfields 
properties are a blight on the community. Though these sites do 
not warrant listing on the National Priority List (NPL) like 
Superfund sites, these contaminated properties can have 
negative environmental and economic impacts.
    The success of this program cannot be understated. Removing 
public health hazards by cleaning up contaminated sites is 
incredibly important for the surrounding communities. Since the 
program's inception, thousands of contaminated sites have been 
remediated, allowing communities to create new developments- 
like housing and parks. EPA has found that cleaning up 
underutilized or abandoned brownfields properties reduces 
health risks, decreases pollution and reduces storm water 
runoff. Aside from the environmental benefits, revitalizing 
these properties can result in crime reduction, job creation, 
and boosts in the local economy.
    However, as successful as the Brownfields Program has been, 
there is still so much important cleanup work to be done. I 
expect we will hear from today's witnesses about the staggering 
number of brownfields properties in need of remediation and the 
increased complexity of remaining sites.
    Many stakeholders have indicated a need for increased 
funding and flexibility to allow States and local communities 
to use their resources effectively to address the increased 
complexity of these cleanups. Through multi-purpose grants, 
regional planning, and increased caps for individual grants, 
communities can start to tackle this problem.
    Communities also need assistance with capacity building. 
Through job training, technical assistance, and education and 
outreach, communities can leverage Federal and State 
assistance, engage with developers in the remediation process, 
and take ownership of their community's revitalization. We 
should be equipping communities with the tools they need to 
ensure successful cleanups.
    Despite the growing need for resources and broad support on 
both sides of the aisle, this successful program has never been 
reauthorized. And while the program has continued to receive 
appropriations, unfortunately, funding levels have declined. 
Furthermore, the Federal tax incentives have lapsed. These were 
incredibly useful tools that encouraged developers to remediate 
sites by allowing them to deduct the costs of cleanups. We 
cannot continue to expect the same success from a program that 
is underfunded and lacking the necessary tools to be effective. 
As we work to determine how we can strengthen this program, we 
should ensure that funding is part of the conversation. We 
should all support cleanup efforts, and should ensure that 
these efforts are adequately funded.
    So, I appreciate today's opportunity to learn more about 
how we can increase the effectiveness of this program. As many 
of you know, I have previously introduced legislation to 
reauthorize appropriations and create the needed flexibility 
for the Brownfields Program. My legislation aimed to address 
some of the concerns that have been expressed by stakeholders, 
including increased capacity building, more flexibility in the 
use of grants, and increased caps on individual grants.
    I would like to reintroduce an updated version of that bill 
soon and hope that we can work together to get bipartisan 
brownfields legislation signed into law this year.
    Thank you, and I look forward to hearing from our 
witnesses.

    Mr. Shimkus. And I thank my colleague, and he yields back 
his time. Chair now recognizes Mathy Stanislaus, Assistant 
Administrator for the Office of Solid Waste and Emergency 
Response from the U.S. EPA. He has been here numerous times, we 
are friends. Welcome. You are recognized for 5 minutes.

STATEMENT OF MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE 
  OF LAND AND EMERGENCY MANAGEMENT, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Stanislaus. Thank you. Good morning, Chairman Shimkus, 
Ranking Member Tonko, members of the subcommittee. I am Mathy 
Stanislaus, Assistant Administrator for the Office of Land and 
Emergency Management.
    Brownfields sites, as has been noted earlier, are the heart 
of America's urban and rural downtowns and existing and former 
economic centers. Reclaiming these vacant and underutilized 
properties and repurposing brownfields are the core of EPA's 
community economic revitalization efforts through the 
Brownfields Program.
    Repurposing land can be the impetus for community 
revitalization. Our Brownfields Program can help be a catalyst 
for redevelopment and revitalization and hinges on the success 
of key local partners working together to implement the vision 
of local communities. The EPA's Brownfields Program provides 
direct funding to communities, States, tribes and not-for-
profits for brownfields assessment, cleanup, revolving loans, 
research and technical assistance.
    The unmet need for brownfields funding for local 
communities to address abandoned underutilized and contaminated 
sites continues to rise. The demand for brownfields funding far 
exceeds brownfields funding levels, and is exacerbated by the 
increased assessment and cleanup costs.
    The EPA currently is only able to fund approximately one-
quarter to one-third of the competitive grant applications we 
have received.
    The program estimates over the past 5 years, an additional 
1,767 requests for viable projects scored highly, but were not 
selected because of a lack of funding. If EPA had the funding 
to select, these grants would have resulted in about 1,800 
proposals being funded, which would have resulted in 50,000 
jobs, and a leveraging of about $12 billion in public and 
private funding.
    The Brownfields Program is premised on partnerships between 
the public and private sector. With EPA's critical early 
resources providing the certainty to leverage funding from 
other Government agencies and private sector achieve positive 
economic and environmental and social outcomes. As has been 
noted earlier, for every $1 EPA invests in communities, it 
leverages about $18 of private-sector and other public 
resources. More than 113,000 jobs has been leveraged through 
EPA's funds, which has leveraged about $22 billion in cleanup 
and redevelopment projects.
    EPA's research has shown that redeveloping a brownfield 
site rather than a greenfield site has significant 
environmental benefits, including reducing vehicle miles 
traveled, and related emissions from about 32 to 57 percent, 
and reducing stormwater runoff by an estimated 47 to 62 
percent.
    Using Census data, EPA found approximately 104 million 
people live within 3 miles of a brownfield site that received 
EPA funding, roughly 33 percent of the U.S. population. This 
includes 35 percent of all children in the U.S. under the age 
of 5. While there is no single way to characterize communities 
located near our sites, this population is more minority, low-
income, linguistically isolated, and less likely to have a high 
school education than the U.S. population as a whole. As a 
result, these communities may have fewer resources with which 
to address concerns about the health and the environment.
    Preliminary analysis of the data of a subset of communities 
receiving grants shows that there is a significant tax revenue 
increase from the redevelopment of brownfield sites. Our data 
shows that there is an estimated $29 million to $73 million in 
additional tax revenue to local governments in a single year 
after a cleanup. This is two to six times more than the $12 
million EPA has invested in these communities. I know over the 
years, there has been support for significantly increasing the 
amount of cleanup grants.
    Now, provided this increase, we support a modest increase, 
but there is a risk of impacting less communities. Based on how 
much we increase the size of cleanup grants, we can actually 
reduce the number of communities that actually receive grants 
in the leveraging of those monies from the private sector and 
other public resources by to 60 percent. So 60 percent of 
communities may not be getting grants on a yearly basis if all 
we do is increase the size of the grants.
    In addition, we want to preserve the local communities' 
knowledge and information to determine the use that best fits 
their vision, and not have a predetermination and division of 
the grant resources based on an upfront determination by the 
Federal Government regarding resources. We want to preserve the 
competition process, which looks at those communities that have 
the best plans in place, that have the best partnerships in 
place which has been the basis of the success of EPA's 
Brownfields Program.
    With that, I will close and take your questions.
    [The prepared statement of Mr. Stanislaus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. McKinley [presiding]. Thank you, Administrator, it is 
always good to see you. Thank you, again, for coming. Before we 
get into other questions, I think I was going to reserve this 
for the chairman to make his remarks, but perhaps--I do want to 
ask something before we get started, and I will begin with the 
ranking member. We have got an example, I know, in West 
Virginia, of real benefits. You talked about 18 times, we have 
got one up in the northern panhandle of West Virginia in 
Hancock area that, for $2.5 million, they have invested over--
private sector had put $70 million in. So it is almost a 30-to-
1 odds up there for that. It has really had an impact. So I 
want to thank you for working with them on this program. Pat 
Ford was the contact up there, if that name rings a bell with 
you or not.
    But secondly, back to your testimony, in your written 
testimony, you talked about 24, 25 percent of the grants went 
to towns of 20,000 or fewer. I would be curious to take that 
down a little bit further, and to find out, I think, in some 
areas of rural America, especially mine, most of the 
communities are less than that, significantly less, 1-, 2-, 
3,000 people. When the coal mines are shut down and all the 
work that was related to those coal mines, they may only have 
700 people in the town and they have got--there is no money, 
there is no money in that community. Can you share with us a 
little bit about the flexibility you have to earmark it towards 
rural areas that need help when the railroads--when the mines 
shut down, that means the railroad shuts down. And when the 
railroad shuts down, we know invariably there are going to be 
some brownfield sites associated with where the rail siting had 
been. They can't afford to do it. So can you help a little bit 
about explaining, maybe really rural areas of 2,000 people or 
fewer, do you have any sense of what that might be percentage-
wise?
    Mr. Stanislaus. Sure. I would answer in a couple of parts. 
One, I think particularly the smaller communities, rural 
communities, have asked us and we have--that upfront technical 
assistance really is key. The capacity for these rural 
communities to be able to compete is really critical. So we 
provide a lot of upfront assistance. We have a national network 
of technical assistance providers. In fact in West Virginia, 
there is a center to provide assistance to the local community, 
I think one of the more successful ones in the country. So the 
upfront technical assistance is really critical to develop the 
capacity or identify opportunities. We also have a non 
competitive mechanism where a local community wants to do an 
assessment on an individual site. What a lot of local 
communities, or smaller communities have said, is that they 
don't really want to administer a grant, because there is a lot 
of administrative burdens associated with the grants. They 
would rather--if they have an individual site, they would 
rather assess that site. So we have a contract-based mechanism 
to assess a particular site. So we think that is successful as 
well.
    In terms of the grant process itself, one of the things 
that we have done is we have separated out new and existing 
grantees, and that has resulted in increasing the number of 
smaller communities and rural communities receiving grants. So 
those are a number of things that we have put in place.
    Mr. McKinley. OK. I am just trying to put it in context. We 
often talk about the Speaker's home in Janesville, Wisconsin, 
being a small town. It is three times the size of my hometown. 
I live in the largest city in my district. So I think we have 
to understand, there are a lot of small towns. So let me follow 
up. Would it be advantageous for some of these small towns to 
collectively put together a regional approach towards it and 
get funded? Would that help?
    Mr. Stanislaus. We have----
    Mr. McKinley. We have been that told they couldn't do that. 
You and I haven't talked about that, but I want to, give a 
chance this morning to talk about that. Would a regional 
approach be helpful for small towns to get together so that 
they may be collectively come up to 3,000 or 4,000 people?
    Mr. Stanislaus. Oh, absolutely. And we could do maybe 
better averaging regarding that. We have something called a 
Community-Wide Assessment grant. So one or more communities can 
say, We want to have a single grant to be administered over a 
broad geography, so we can look at that.
    We also have an Area-Wide Planning Program, which is 
intended to look at not just the sites itself, or not just the 
contaminants itself, look broadly at what will it take to 
redevelop an area, what will enable market studies, enable 
local visioning, enable infrastructure studies. In fact, in our 
next round, we are going to do a particular focus on 
communities that have closed coal mines and closed power 
plants.
    Mr. McKinley. Thank you. And now let me recognize 
Congressman Tonko from New York for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Administrator Stanislaus, thank you for your testimony. As 
I indicated in my opening statement, this is a great program. I 
would like it to have the additional resources and statutory 
changes necessary to make it even greater. I believe that 
folding brownfields cleanup into broader regional economic 
development efforts can help local, county and regional 
authorities to make smart and sustainable planning decisions.
    In my district, for example, we are trying to determine 
which parts of a waterfront will be developed, and which will 
be left green in a long stretch of miles along an intercoastal 
waterways system. Brownfields cleanup priorities should be 
considered in this effort. New York State's Brownfield 
Opportunity Areas, the BOA program, takes a neighborhood or 
area-wide approach rather than the traditional site-by-site 
approach to the assessment and redevelopment of brownfields. 
This allows for more comprehensive planning, and, certainly, a 
stronger sense of cleanup. I believe this is similar to EPA's 
area wide planning grant. So I would ask you to give us a quick 
history of this type of grant, you know, how has it changed 
since its inception? And what is the thinking at EPA?
    Mr. Stanislaus. Well, I actually brought the Area-Wide 
Planning approach to the EPA from my work in New York on 
developing the Brownfield Opportunity Area program. And we 
think it is really critical and has been really successful, 
particularly with communities with economic distress, to look 
at, more broadly, the planning side, the market study side, the 
infrastructure study side.
    Just to give you a bit of leveraging, the recipients of 
Area-Wide Planning grants, to date, have reported that the $12 
million in grants have leveraged about $354 million above the 
public and private resources. One of the things that we really 
emphasize is, use these grants to identify implementing 
resources, so let's just not have a plan for plan's sake, let's 
figure out, of our plan, what kind of Federal, State and local 
resource are there to implement the vision coming out of a 
local community.
    Mr. Tonko. If I might ask, do you see economies? Have you 
witnessed or somehow interpreted economies of scale by doing 
perhaps testing, and some of the drilling they need to do in 
these areas to determine the response? Has that produced any 
sort of economies of scale by doing it in a regional capacity 
rather than community by community, doing their individual 
thing?
    Mr. Stanislaus. Yes. One thing we have seen from the first 
set of grants in the Federal Government is that it is important 
to develop a boundary that makes sense. It could be a 
geographic boundary, it could be a multi political 
jurisdictional boundary, but what works is making sure that 
there is a real-working governance structure and a real-working 
geography.
    We have found early on that if a job is too big, that it 
actually impedes success. We ask folks to identify a few 
catalyzing sites, identify geography that is manageable, show 
success there before you go broader.
    Mr. Tonko. What would be too large? Do you have any--could 
you share what is too large? Is it beyond a certain mile 
measurement?
    Mr. Stanislaus. I am sorry. Say that again?
    Mr. Tonko. Is there a certain mile measurement along from 
distance from each other, or what is too large?
    Mr. Stanislaus. Well, I think, frankly, it is going to 
depend on the part of the country. What we found is, we have 
large industrial corridors, multiple municipalities work 
together historically. That is a natural fit. But if you have 
communities that are dispersed by miles, it is very hard for 
that to work. So it really depends on a little bit of history, 
and a little bit of working relationship on the ground.
    Mr. Tonko. OK. And in terms of nonprofits, they can be 
partners for local governments and developers to get projects 
completed, especially for our many disadvantaged communities. 
Are non profits currently able to receive grants for a cleanup?
    Mr. Stanislaus. Well, no. And clearly, what we have heard 
from various not-for-profits, who really serve as an extension 
of local government----
    Mr. Tonko. What about the ability to receive grants for 
assessments?
    Mr. Stanislaus. I am sorry, they are only eligible to get 
assessment grants.
    Mr. Tonko. Are there any concerns as to why non profits 
with a good traffic record for cleanup grants should not be 
qualified?
    Mr. Stanislaus. It is a statutory issue.
    Mr. Tonko. What is your sense? Do you think that we should 
amend the statute?
    Mr. Stanislaus. I do, I do. Clearly, focusing on those not-
for-profits that play a role in redevelopment and have the 
local partnerships to enable a project moving forward.
    Mr. Tonko. Are there additional tools that EPA has for 
capacity building for disadvantaged communities?
    Mr. Stanislaus. Additional tools. Well, I think I described 
a little bit on the technical assistance program is really 
critical. Funding local entities to provide direct technical 
assistance to municipalities. So those are the things we have 
been doing, doing upfront outreach. So those are the things we 
have been doing.
    Mr. Tonko. I would just state--and I see that my time is 
up--but I would state that a comeback scenario for many of our 
disadvantaged communities that has a brownfield cleanup 
situation needs additional focus, and the assistance that we 
can provide for that would be important. I have many other 
questions that I will enter for into the record so that EPA can 
respond to those concerns.
    Mr. Stanislaus. OK.
    Mr. Tonko. Thank you very much, and I yield back.
    Mr. McKinley. Now, for the next round of questions come 
from Dr. Bucshon of Indiana, 5 minutes you are recognized.
    Mr. Bucshon. Thank you, Mr. Chairman, and this will 
springboard off Congressman Tonko's questioning. We know that 
many of the brownfield sites already cleaned up and redeveloped 
are less complicated sites. For sites that are more 
contaminated and thus more complicated than others, what can be 
done to encourage cleanup and redevelopment of these sites?
    Mr. Stanislaus. Well, I am a big believer, and we have done 
studies, independent studies. From a financial-transaction 
perspective, the site assessment resources are really critical 
to better manage the risk of a site. In terms of how do you 
translate this unknown to a known? How do you translate the 
contaminants to what does it take to clean up, so then that 
could be underwritten in terms of the subsequent financing.
    Mr. Bucshon. Are some of the sites federally owned? 
Anything federally owned, or I don't know, do the Feds clean 
these up themselves? For example, I have an old nerve gas plant 
in the northern part of my district, facility--there was a DOD, 
and it took years and years and years to get that repurposed 
into, now it is an economic development area and it was--is 
this program involved in any of that stuff or that is totally 
separate?
    Mr. Stanislaus. Yes, that is largely separate. There is a 
separate tract of figuring out how DOD properties, or DOE 
properties can be transferred by making sure that the Federal 
Government addresses this liability, either before transfer or 
subsequent to transfer.
    Mr. Bucshon. Once the property is transferred, I guess no 
one in the private sector would take a transferred property in 
that kind of condition, but once that type of property, then 
would be in the Brownfields Program? I am just trying to 
clarify.
    Mr. Stanislaus. No. So typically, in a DOD kind of 
property, it is typically transferred to a local government.
    Mr. Bucshon. Which this was.
    Mr. Stanislaus. Yes. And then, either some cleanup is done, 
or some parceling of that property to redevelop some parcels 
and not others.
    Mr. Bucshon. Yes.
    Mr. Stanislaus. And then there are ways of limiting 
liability through instruments with the State and through some 
insurance products.
    Mr. Bucshon. Are there other Federal agencies barriers to 
getting some of these sites redeveloped? For example, fish and 
wildlife, I can name other agencies. Are those barriers--I know 
most of these are industrial buildings that are old factories. 
But, I mean, are there other Federal agencies that have to be 
interacted with that are barriers to getting some of these 
sites cleaned up that you are aware of?
    Mr. Stanislaus. Yes. I don't think necessarily barriers. We 
do, in fact, engage with other agencies on the economic 
development resources side, like DOT and HUD. We want to make 
sure that once the assessment is done, once the cleanup plan is 
developed, that the implementing resources like TIGER grants 
from DOT, for example, that there is some advantage for 
communities who have done the hard work and similarly with HUD, 
we have been working with HUD as well.
    Mr. Bucshon. How many applications do you get per year 
approximately?
    Mr. Stanislaus. Oh, can I get back to you, I----
    Mr. Bucshon. I know I am putting you on the spot.
    Mr. Stanislaus. Yes. I have it here, but I will get back to 
you.
    Mr. Bucshon. OK. You won't be able to answer this either. I 
was going to say, approximately, how many grants do you award 
every year?
    Mr. Stanislaus. Well, I will give you a percentage. We are 
only able to fund about 25 percent to 30 percent of the grants 
we receive from applicants.
    Mr. Bucshon. So--I mean, it is complicated, right? But how 
do you analyze an application to determine whether a project is 
going to be successful? Is there, like, some immediate things 
that a red flag goes up, just might as well not even try to get 
a grant from us? There is probably entry-level type 
decisionmaking, and then--I was a doctor, so triaging of 
possible sites that might qualify?
    Mr. Stanislaus. So are you asking how we evaluate?
    Mr. Bucshon. Yes.
    Mr. Stanislaus. We publicly announce grant criteria up 
front. It looks at the local circumstance, the capacity of the 
recipient--of the grant applicants, and we do a national 
competition and we score that, and that is how we do that.
    Mr. Bucshon. That seems pretty straightforward. I yield 
back. Thank you, Mr. Chairman.
    Mr. McKinley. Thank you. The prerogative. I have one 
follow-up with one more question to you, if I could, before I 
turn it over to the ranking member.
    The brownfield law requires that 25 percent of the funds 
appropriated to EPA for brownfield sites, they are to be used 
to characterize, assess and remediate petroleum brownfields. 
Did you think this petroleum set-aside is still necessary?
    Mr. Stanislaus. No.
    Mr. McKinley. Thank you.
    Now I recognize the ranking member of the full committee, 
Mr. Pallone from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman. The Brownfields 
Program, as you said, Mr. Stanislaus, has been a success. The 
committee has been able to leverage Federal and State dollars 
in cleanup and revitalize contaminated sites. However, 
brownfields cleanups are becoming more complicated, resulting 
increased assessment and cleanup costs. So I wanted to ask you: 
Initially, would an increase in the cap on individual grants be 
helpful to communities trying to cleanup these more complicated 
sites?
    Mr. Stanislaus. Yes. It's something that--I think a modest 
increase makes sense. I am concerned that without an increase 
in appropriations, that we will actually have the total number 
of communities being reduced. So, I will leave it at that.
    Mr. Pallone. Yes. Well, that serves my second question, 
because these grants are in high demand, and because of 
insufficient funding, many applications go unfunded. So if you 
increase the cap with current funding letters--current funding 
levels, that is going to mean fewer applications being funded, 
correct?
    Mr. Stanislaus. That is right.
    Mr. Pallone. So, therefore, a simultaneous increase in 
overall funding and an increased cap for individual grants 
would obviously be the most useful to continue success of the 
program?
    Mr. Stanislaus. Yes, and I should note in the President's 
budget, he has called for a bump-up in brownfield resources.
    Mr. Pallone. Now, stakeholders have also mentioned that 
greater flexibility in the use of grants would be beneficial. 
One such example is EPA's multipurpose pilot grants, which 
allow recipients to use the funds for a range of brownfield 
activities. And one of the potential benefits to this grant 
structure is expediting the timeframe between assessment and 
cleanup. So let me just ask you about that. To date, how many 
multipurpose grants have been awarded by the EPA?
    Mr. Stanislaus. Let me get back to you with a number, but 
my overall experience has been, which we were surprised by, is 
actually, where a grant recipient identified a single site for 
assessment and cleanup has actually been a bit slower than we 
anticipated. So we are looking at providing a grant, a 
multipurpose grant for multiple sites. Some sites may need 
assessment, some sites may need cleanup. So we want to continue 
to explore various vehicles of multipurpose grants. But we are 
not sure necessarily that one grant for one side for a site 
assessment and cleanup necessarily saves time. We are still 
looking at that.
    Mr. Pallone. That was my next question, if you had any 
preliminary data that shows that this type of grant is 
beneficial to developers and communities. Can you comment on 
that, or are you still looking into it?
    Mr. Stanislaus. I think, in principle, it would, but we 
just--so there are two competing issues: Would providing a 
grant for assessment of a cleanup on an individual site save 
time from two competitions? And we are finding that our data 
shows that that is not necessarily the case. We also have this 
issue of having money that is out there--we are fairly 
obligated if money is out there for too long to take it back. 
So there is tension that we have to resolve.
    Mr. Pallone. OK. Before my time is up, I wanted to turn to 
administrative costs because currently, brownfields grants 
funds cannot be used for administrative costs. However, 
allowing recipients to use a portion of EPA funds to offset 
some of the administrative burden could help communities, 
particularly rural and financially disadvantaged communities. 
Did you want to comment on that?
    Mr. Stanislaus. Yes, I think we have heard repeatedly from 
grant recipients, particularly smaller communities that it is a 
burden. I think that is a sensible approach to figure out a way 
of not burdening them with the administrative costs.
    Mr. Pallone. OK. Well, I am encouraged to hear about the 
success of the program, and EPA's commitment to cleaning up the 
contaminated sites. As I said, look forward to working with the 
EPA to help strengthen the program and ensure that States and 
local communities receive adequate resources to administer and 
support these cleanup efforts. I mean, obviously in my State, 
both Superfund and brownfields have been tremendously helpful. 
I can point to so many cases in my district where they have not 
only cleaned up sites, but revitalized the economy and, you 
know, created jobs and the list goes on and on. So, again, Mr. 
Chairman, I hope that we can work on a bill together that would 
reauthorize this and I yield back. Thank you.
    Mr. McKinley. Thank you. I now recognize the vice chairman 
of the subcommittee, Mr. Harper from Mississippi, for 5 
minutes.
    Mr. Harper. Thank you. Mr. Stanislaus, it is good to have 
you back.
    Mr. Stanislaus. Great to be back.
    Mr. Harper. You are a regular here, so thank you very much 
for your insight. At a hearing on the Brownfields Program held 
at the Transportation and Infrastructure Committee, you 
explained that the Brownfields Program is a good model of 
leveraging. Can you explain to us what that means and explain 
why that is the case and how EPA maximizes leveraging Federal 
dollars?
    Mr. Stanislaus. Sure. One from a transactional perspective, 
being able to reduce risk early through site assessment allows 
the unknown of total cost to be a known, so that that can be 
quantified for underwriting and bringing private resources to 
the table, that is one thing that we do.
    Mr. Harper. OK.
    Mr. Stanislaus. The second is, we have been pushing the 
idea of preference and priority, which is, that if the 
community has done the hard work and the planning, they should 
get some benefit, for example, DOT TIGER grants recognizes 
upfront planning. So that is some of the things we have been 
doing.
    Mr. Harper. Thank you. Will expanding the eligibility for 
what entities can receive brownfields funds decrease the number 
of grants awarded?
    Mr. Stanislaus. Expanding the eligibility? Can you expand?
    Mr. Harper. Basically, if we expand the eligibility for 
what entities can receive these, how--what impact, if any, do 
you think that would have on the overall leveraging of Federal 
dollars?
    Mr. Stanislaus. Well, if I understand your question, so, 
you know, we go to the national competition, and we pick the 
most qualified, not just the success of the program--if your 
question is about increasing the size of the grant--is that 
your question?
    Mr. Harper. Or, for instance, expanding it to include 
nonprofits, what waterfront grants, those type things.
    Mr. Stanislaus. Yes. I think not-for-profits, there are 
benefits, particularly for smaller communities, which really 
rely on not-for-profits on economic development and housing 
development work. So the natural extension provided the 
capacity gap that some smaller communities may not have, so we 
do view that as a positive.
    In terms of an upfront determination of waterfront grants, 
we actually think there are unintended consequences of dividing 
grants too early in the process, as opposed to having the grant 
applicants demonstrate who are the best qualified.
    Mr. Harper. Do you think that grants and nonprofits 
organizations require more project management resources?
    Mr. Stanislaus. More project management resources? Clearly, 
be it a local government or a potential not-for-profit, they 
need to demonstrate capability and capacity.
    Mr. Harper. Sure. There is a bill pending in the Senate 
right new on brownfields, Senate bill No. 1479. Some of the 
changes in that bill require EPA to consider certain types of 
grants, for example, those waterfront grants and clean energy 
grants. Rather than directing EPA to consider certain sites for 
brownfields funding. Shouldn't local communities decide the 
best in use for redevelopment project?
    Mr. Stanislaus. Absolutely. I have gone on record and said 
that before.
    Mr. Harper. Does EPA already have authority to issue grants 
to these types of projects?
    Mr. Stanislaus. Absolutely.
    Mr. Harper. Does EPA support the concept of multipurpose 
grants? Are there problems associated with awarding grants 
funding for both assessment and cleanup activities 
simultaneously under the same grant?
    Mr. Stanislaus. Yes, we have a grant cycle right now. I 
think we were looking at how do we provide even more 
flexibility. We don't believe we need statutory authority for 
that, though.
    Mr. Harper. Does EPA support the broadening of grant 
eligibility so that governmental entities that took titles of 
the property before the date of the brownfields law in 2002, 
but which did not causes or contribute to the contamination, 
are they eligible to receive brownfields grants funding?
    Mr. Stanislaus. Yes, I think that makes sense, 
municipalities have raised that as an impediment to 
redeveloping their downtowns.
    Mr. Harper. How would EPA ensure that these governmental 
entities did not cause or contribute to the contamination?
    Mr. Stanislaus. Well, I think in the same way that we do 
now, we actually do a record search, and we require a 
demonstration of their linkage to the property.
    Mr. Harper. And would these governmental entities have to 
demonstrate that they conducted the appropriate due diligence 
or appropriate inquiry?
    Mr. Stanislaus. That is right.
    Mr. Harper. With that, I will yield back.
    Mr. McKinley. Thank you. And now we recognize for 5 minutes 
the Congresswoman from California, Ms. Capps.
    Mrs. Capps. Thank you, Mr. Chairman McKinley and Ranking 
Member Tonko, for holding this hearing, and thank you, 
Assistant Administrator Stanislaus, for your testimony today.
    The Brownfields Program has been an important one for 
cleaning up contaminated properties, reducing exposure to 
harmful contaminants, and revitalizing our communities. My 
district's experience with the Brownfields Program goes way 
back to the awarding of initial pilot redevelopment projects in 
the beginning. As you know, I represent a district in 
California that is comprised of many coastal communities. As 
you can imagine, keeping these waterfront properties free of 
contamination is not only a concern for public health and the 
environment, it is also an economic concern.
    My first question to you, Mr. Stanislaus, do coastal 
communities have unique challenges when cleaning up 
waterfront--brownfields property?
    Mr. Stanislaus. Unique challenges? I think waterfront 
property, I think, vary depending on the kind of contaminates. 
I have to think there are some unique opportunities given their 
waterfront and the transportation access, also.
    Mrs. Capps. So are there tools or resources that are 
available to communities who have these particular, and maybe 
unique challenges in their brownfields?
    Mr. Stanislaus. Yes, I would say the Area-Wide Planning 
program is one of the grant programs, because waterfronts tend 
to be pretty large in terms of the opportunity, so area-wide 
planning allows infrastructure studies and market studies.
    Mrs. Capps. OK. What kind of public outreach does the EPA 
engage in to make sure that residents, my constituents are more 
informed about brownfields and the availability of remediation 
process?
    Mr. Stanislaus. I am sorry. Can you say that again?
    Mrs. Capps. Well, are there public outreach programs that 
you are engaged in that would ensure that the residents, my 
constituents and various people, become more informed about 
what brownfields are and that there is remediation, a process 
available?
    Mr. Stanislaus. Sure. So we provide a grant to entities 
around the country, it is to do that direct outreach in 
technical assistance to communities in addition to what we do 
ourselves. In terms of the cleanup itself, the cleanup is 
administered by State cleanup programs, and we separately fund 
States and tribes for that.
    Mrs. Capps. OK. I am pleased to hear that you are engaged 
in this, because I think that some people don't even know that 
they are sitting on top of a brownfield, or they are associated 
with it that might be eligible for some special benefits.
    Another issue I would like to talk about is the sustainable 
reuse of brownfield sites. I think it is very important 
communities are able to revitalize these underused, or 
abandoned sites, in a sustainable way. So are there ways, and 
what are they, that you have promoted sustainable reuse of 
brownfields, such as green building stormwater management, and 
how have these sustainable uses benefited communities?
    Mr. Stanislaus. Yes, I would begin with, I think, 
brownfields by itself is very sustainable because they are in 
kind of population centers and lower air emissions and lower 
water kind of impact. In terms of promoting some of the items 
you suggested, we actually highlight some of the best practices 
used at all the sites, like green infrastructure, for example. 
And there have been a few sites, like in Monroe, Michigan, 
where there is actually an assembly plant for wind energy.
    Mrs. Capps. OK. The reuse.
    Mr. Stanislaus. Yes.
    Mrs. Capps. I appreciate your testimony here today in 
answering questions, especially as we deal with the effects of 
climate change. It is so important that we think about 
sustainability of development projects. I am happy to hear that 
EPA has been working to promote sustainability in the 
Brownfields Program while, at the same time, protecting public 
health of course and revitalizing our communities.
    With that, Mr. Chairman, I am prepared to yield back, or 
yield to someone else.
    Mr. McKinley. Thank you. Not seeing any more on this side, 
the enlightened side of the argument. We will move to the other 
side, the hopeful side.
    Mr. McNerney. Idealistic.
    Mr. McKinley. Five minutes to Mr. McNerney from California.
    Mr. McNerney. I appreciate the hearing.
    Mr. Stanislaus, would it be fair to say that every single 
congressional district in this country has real estate that 
would qualify for the Brownfields Program?
    Mr. Stanislaus. I can't imagine that is not the case.
    Mr. McNerney. That is right. So, Mr. Chairman, I think we 
have a good case that we could make to our colleagues to get 
this program funded.
    Moving on, I am really interested in your leverage state. 
You said you can leverage sometimes 1 to 18. That is 
phenomenal.
    Mr. Stanislaus. Yes.
    Mr. McNerney. How do you do that?
    Mr. Stanislaus. Well, I think it is the sweet spot of 
Government. So, I think that it provides the upfront money to 
deal with the uncertainties. And when you deal with the 
uncertainties, more private capital and even public economic 
development research can be brought to the table.
    Mr. McNerney. Well, you also mentioned you want to preserve 
the competitive process, but there is probably a lot of 
potential projects that don't have the resources to put 
together a quality proposal. Are there means within the program 
to help some of these communities?
    Mr. Stanislaus. Yes. So we fund--because we cannot directly 
assist communities to write a grant application that we are 
going to have to judge, so we fund entities around the country 
to provide assistance to actually help in preparing those 
applications.
    Mr. McNerney. Very good.
    Mr. Stanislaus. And identifying how they should best put 
together a competitive application.
    Mr. McNerney. Is that a successful operation?
    Mr. Stanislaus. Oh, it is very successful. I can give you a 
list of what each of these recipients have been doing.
    Mr. McNerney. Very good. City of Stockton, California, has 
been my district, and it has benefited from the Brownfields 
Program significantly, seed money, eventually lead the 
revitalization, the seed money you talked about, properties 
along the Stockton Deepwater channel.
    I understand, also, that the EPA has relatively new 
repowering America's land initiative which focuses on renewable 
energy, and it looks like there is about 150 programs that have 
gone through that. What is the advantage for a renewable energy 
business to use that program?
    Mr. Stanislaus. Well, it makes all the sense in the world 
where you have contaminant problems--particularly a 
contaminated property where other kinds of redevelopment are 
more challenging. What we have done is we partnered with the 
Department of Energy Renewable Energy Laboratory and we mapped 
contaminated sites around the country for wind energy 
opportunity and portable tech energy opportunity. And also, 
these happened to be in proximity to transmission line 
corridors as well. So we see it is a great fit between 
renewable energy and a use of a property that may not otherwise 
be used for other kinds of uses.
    Mr. McNerney. Very good. Mr. Chairman, I am going to yield 
back.
    Mr. McKinley. Thank you very much. Now we are staying on 
that side of the aisle. We will go down for the next 5 minutes 
of questioning, Mr. Green from Texas.
    Mr. Green. Thank you, Mr. Chairman and our witness, for 
being here today. I represent an area in Houston, Harris 
County, Texas. We have a number of former industrial sites. A 
very urban area that grants through Brownfields Programs have 
been instrumental in transforming some of those underutilized 
and abandoned sites in the productive properties in the 
community. However, many small and disadvantaged communities 
don't have the capacity to undertake these revitalization 
projects like a city like Houston can do.
    Mr. Stanislaus, in your testimony, you mentioned EPA data 
shows that funding and technical assistance are reaching small 
and disadvantaged communities. How much of this assistance is 
reaching the disadvantaged community? Do you have any examples 
of locations where EPA has worked with those smaller, 
disadvantaged communities?
    Mr. Stanislaus. Yes, I could follow up with specific 
examples after this hearing. But I think we have done a pretty 
good job of trying to make sure that all communities 
participate in the grant program. But in addition to the grant 
program, what many mayors or town managers of smaller 
communities say is, in some case providing the ability to move 
that one property. And so, we have contract assistants to 
assess that one property that has been pretty successful. You 
also have a technical assistance program that I think these 
communities have found really valuable.
    Mr. Green. What type of assistance--could you describe some 
of the assistance supported provided by EPA under the 
Brownfields Program?
    Mr. Stanislaus. So some of the technical assistance, it 
includes, in some cases, actually doing a site assessment, 
understanding the potential contaminants at a site. In other 
cases, through the TAB program, we fund recipients to help 
communities understand the requirements of our grant program, 
kind of Brownfields 101, understand transactions and how to 
actually go from a vacant, underutilized property and walk them 
through each step of the transaction and redevelopment.
    Mr. Green. Well, I have a great example in my community. 
Again, it is a very urban area, we had a location for our city 
bus barn for the last 50 years up until about 20 years ago. And 
the lead contamination in that soil was so bad, but it was 
remediated. In fact, it was left open, a very urban area with a 
great deal of green space that nobody could go on. But after a 
period of time now, it is actually a community college, covered 
up the soil, and it is very viable in a very urban area, so I 
appreciate that.
    The Area Wide Grant program, the AWP, I understand AWP 
grants have been successful in providing funds to support 
communities with the developing plans identifying 
implementation strategies for area wide revitalization. How has 
this program been successful in revitalizing economically 
distressed communities?
    Mr. Stanislaus. Yes, what it does, particularly for 
economically distressed communities, it allows communities to 
what I call go beyond the fence line. Look at the state of 
infrastructure, look at the infrastructure investment needs, 
look at the current market and future market conditions, look 
at implementing resources that are available at the Federal, 
State and local government. And again, to recite the stat I 
gave out earlier, allot $12 million to EPA recipients, Area-
Wide Planning recipients, there is leveraged $354 million in 
other resources for redevelopment.
    Mr. Green. And how do partnerships with nonprofits and 
other organizations help ensure successful remediation? In my 
case, it is mostly with local governments.
    Mr. Stanislaus. I think it is critical, particularly in 
smaller communities that need that capacity assistance. Not-
for-profits could be a local economic development entity, could 
be a local housing development entity, a local industrial 
development entity, which are not-for-profits to enable the 
whole process to move forward.
    Mr. Green. OK. There are concerns that some sites are 
cleaned up and new developments may no longer take into account 
the needs of long-time residents of the area, particularly 
affordable housing with an economically distressed community. I 
think it is an important consideration for revitalization 
should how these project serve communities. In what ways is EPA 
working to encourage community engagement to ensure that the 
needs of the residents are met?
    Mr. Stanislaus. Sure. At its heart, the Area Wide Planning 
program is designed to enable community vision, inclusion of 
local residents who have been fighting, for many times years, 
around that particular site. We have also invested a lot in the 
tools for equitable development. How do we make sure that, for 
example, affordable housing, and generally the needs of job 
creation or housing is part of the visioning of a brownfield 
redevelopment scenario.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. McKinley. I thank you.
    Now they called the votes. Thank you very much for your 
testimony, Mr. Stanislaus.
    Mr. Stanislaus. Are you telling me to leave? Is that what 
you are saying?
    Mr. McKinley. But you will be back. You are a fixture 
around here. Wasn't it nice no one had to yell at you today?
    So the second panel, and then we are going to break for 
votes and come back after that. So if I could have the five 
panelists for the second panel, if they could take their seats, 
please.
    In respect for the time, because the clock is ticking over 
there on the call, we get 10 minutes left to go. We have Meade 
Anderson, Brownfields Program Manager with the Virginia 
Department of Environmental Quality, which he is testifying on 
behalf of the Association of State and Territorial Solid Waste 
Management Officials. We have Christian Bollwage, who is the 
mayor of the city of Elizabeth, New Jersey; Clark Henry is the 
owner of the CIII Associates, LLC; Amy Romig, partner at Plews, 
Shadley, Racher & Braun. And Veronica Eady, Vice President and 
Director of the Conservation Law Foundation.
    If it's all right with you if we just get it started and--
--
    Mr. Shimkus. No, just go vote.
    Mr. McKinley. Then we will come back. Hold tight. Thank you 
very much.
    [Recess.]
    Mr. Shimkus. I am going to call the hearing to order.
    Again, thank you for your patience. Fly-out day. This 
subcommittee, we have to get the rooms----
    Come on in, Mayor.
    We want to get the rooms when we get them because of these 
important issues. So patience. We will have members coming and 
going. But it was also the last vote on the floor, so a lot of 
them are getting back to their districts. So your testimony is 
still important, and we appreciate you being here. So I will 
just introduce folks----
    Unless, Mr. Schrader, do you want to say anything, since 
you weren't here for opening statements? Do you want to----
    Mr. Schrader. No, Mr. Chair. And I apologize for not being 
here earlier. And I had a chance to converse with, you know, 
some of our participants. I really appreciate what they are 
doing. It is a timely issue and a big issue of my State where 
we have a Superfund site that we are trying to get to 
resolution on. So this is a great hearing, sir.
    Mr. Shimkus. And I look forward to visiting that site 
sometime soon.
    Mr. Schrader. Yep.
    Mr. Shimkus. So with that, I will just do the 
introductions.
    Each person individually, you will do your 5-minute opening 
statement. Your full statement is submitted for the record. And 
then we will go to questions afterwards based upon the 
testimony.
    So I would like to first start with Mr. Meade Anderson, 
Brownfields Program Manager, Virginia Department of 
Environmental Quality, on behalf of the Association of State 
and Territorial Solid Waste Management Officials.
    Sir, welcome. And you are recognized for 5 minutes.

 STATEMENTS OF J. MEADE R. ANDERSON, CHAIR, BROWNFIELDS FOCUS 
    GROUP, ASSOCIATION OF STATE AND TERRITORIAL SOLID WASTE 
  MANAGEMENT OFFICIALS; J. CHRISTIAN BOLLWAGE, MAYOR, CITY OF 
  ELIZABETH, NEW JERSEY, ON BEHALF OF THE U.S. CONFERENCE OF 
MAYORS; CLARK HENRY, OWNER, CIII ASSOCIATES, LLC; AMY E. ROMIG, 
PARTNER, PLEWS SHADLEY RACHER & BRAUN, LLP; VERONICA EADY, VICE 
    PRESIDENT AND MASSACHUSETTS DIRECTOR, CONSERVATION LAW 
                           FOUNDATION

               STATEMENT OF J. MEADE R. ANDERSON

    Mr. Anderson. Good morning, Chairman Shimkus and Ranking 
Member Tonko, members of the subcommittee.
    My name is Meade Anderson. I am chair of the Brownfields 
Focus Group with the Association of State and Territorial Solid 
Waste Management Officials, ASTSWMO. I am here today to testify 
on behalf of ASTSWMO.
    ASTSWMO is an association representing waste management and 
remediation programs of 50 States, five Territories, and the 
District of Columbia. Our membership includes State program 
experts with individual responsibility for the regulation or 
management of waste, hazardous substances, including 
remediation tanks, materials management, and environmental 
sustainability programs.
    I would like to preface my remarks with commenting that our 
organization does enjoy a positive working relationship with 
the U.S. EPA. Our collaborative efforts and problem-solving 
approaches to brownfields issues with the EPA Office of 
Brownfields and Land Revitalization should not be 
underestimated. I think what you are going to hear from me 
today is almost an echo of everything that we have heard 
earlier, and maybe a little bit more.
    ASTSWMO is a strong supporter of the Brownfields Program. 
For the past 14 years, this program has contributed greatly to 
the economic development and revitalization of the country. 
State and territorial programs provide significant support to 
the localities, such as small and rural communities that apply 
for grants. These programs also help ensure that funding is 
leveraged to the maximum extent possible to assist in the 
revitalization of these sites. The vast majority of these 
cleanups are managed under the State voluntary cleanup 
programs, which are typically supplemented by the 128(a) 
brownfields funds that we are going to be talking about today.
    Some of the benefits include providing funds for complete 
environmental assessments of properties, supporting local 
community officials in the preparation of grant applications 
that you have heard earlier, providing workshops for the 
organizations that are in these districts, and meeting with 
community officials. Just like a couple of weeks ago, I was 
meeting with a town that has five employees. They don't have 
the ability to have a brownfields expert on staff and 
supporting the voluntary cleanup programs that I have mentioned 
that provide the foundation for setting the remediation goals 
and the institutional controls to make sure the properties are 
safe for reuse.
    Since the brownfields law's beginning, 128(a) fundings have 
been provided to the States and--States, territories, and 
tribes with the national funding level at just under $50 
million for the last 14 years, whereas the number of applicants 
has continued to more than double. In 2003, 80 States, 
territories, and tribes received the funding of $49.4 million. 
By 2016, 164 entities requested funding, including 50 States, 
four territories, the District of Columbia, 109 tribes, eight 
of which were new applicants. The awards in 2003 averaged 
$618,000. However, by fiscal year 2016, the average award had 
dropped to approximately $293,000, less than half what had been 
awarded when the program started.
    As you have heard today, we are now facing more challenging 
sites than ever. Over the last 10 years, we were able to clean 
up many of the more easily to clean up sites and revitalize 
them, bringing benefits to the States and the communities. 
However, what remains is more challenging. And the 
redevelopment has been hampered by the complex issues of the 
contamination and the challenges of the community as a whole.
    These properties are financially upside down due to 
suspected environmental contamination. Yet many of these sites 
are situated in key locations in our small communities, cities, 
and towns. The more challenging sites require a unique 
collaborative approach of the stakeholders working in 
partnership with the community, local, State, Federal 
governmental organizations, business partners, NGOs, and 
individuals from the community itself. The State's Brownfields 
Program plays a significant role in ensuring these sites are 
cleaned up to standards that are safe for their reuse.
    Earlier we talked about the leveraging that goes on, and 
the University of Delaware has published two well-respected 
studies. The Economic Impact of Delaware's Economy: The 
Brownfields Program is one of them, that you get this $17.50 
return on a dollar's investment that goes into these brownfield 
sites. These two documents are referenced in my written 
testimony.
    To summarize, ASTSWMO believes in a robust Brownfields 
Program at all levels of Government working in concert with the 
private sector, is essential for the Nation's environmental, 
economic, and social health. And without adequate funding for 
the State, territorial, and tribal brownfield and voluntary 
cleanup programs, brownfield goals cannot be achieved. Where 
the current level of funding is inadequate, we want to ensure 
that it is at least protected to a minimum.
    Thank you for the opportunity to testify. I would be 
pleased to answer any questions.
    [The statement of Mr. Anderson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. I thank you very much. I want to turn to the 
ranking member of the full committee.
    Do you want to introduce the next person to testify or are 
you----
    Mr. Pallone. Oh, sure.
    Mr. Shimkus. I recognize the ranking member.
    Mr. Pallone. Mayor Bollwage is the mayor of Elizabeth, 
which is one of the largest cities in New Jersey. And I have 
known him for a long time. And he has been mayor for many 
years. And he has been definitely a progressive mayor who has 
really done a lot to revitalize Elizabeth.
    If you go to Elizabeth today, compared to 20 years ago, you 
just see all the changes that have occurred that are all 
positive. The major downtown area, a lot of people shopping in 
town. So many improvements. So--but and a lot of that--some of 
that has related to the Brownfields Program as well. So that is 
why he is here today.
    Thank you, Mayor.
    Mr. Shimkus. Thank you, Mayor. Welcome. You are recognized 
for 5 minutes.

               STATEMENT OF J. CHRISTIAN BOLLWAGE

    Mr. Bollwage. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here.
    And, Ranking Member Tonko, thank you.
    And, Congressman Pallone, thank you for those very kind 
words, and always look forward to working with you on the 
issues that benefit New Jersey.
    As you--my name is Chris Bollwage. I am the mayor in the 
city of Elizabeth. I have also been the chair of the Conference 
of Mayors Brownfields Task Force for some 20-plus years. And 
since the 1990s, the U.S. Conference has made the redevelopment 
of brownfield properties a top priority. And all of you can 
understand why that has happened.
    There are an estimated \1/2\ million brownfields. And 
businesses were unwilling to touch these properties out of fear 
of liability. The congressman asked a question of the first 
panelist, is there a brownfield in every congressional 
district? And the U.S. Conference of Mayors did a study years 
ago that shows that every congressional district in this 
country has at least one brownfield incorporated.
    I testified before Congress numerous times during the 1990s 
on the importance of this legislation. Urban sprawl has left 
almost every community with an abandoned site in the Nation. 
The brownfields law has had a very positive impact on our 
economy. EPA estimates over 24,000 brownfield assessments, 
1,200 cleanups have been completed, 113,000 jobs created, $22 
billion leveraged.
    In our last survey, 150 cities developed nearly 2,100 
sites, comprising 18,000 acres. And 106 cities reported 187,000 
jobs were created; 71,000 predevelopment and 116,000 permanent 
jobs.
    And briefly, in our city, Congressman Pallone referred to 
it, we have Jersey Gardens Mall. It was built on a former 
landfill, 166 acres. Now has 2 million square feet of shopping, 
over 200 stores, six hotels, movie theater, with 1,700 
construction jobs, 4,000 permanent jobs, $2.5 million in tax 
revenue in the first 8 months. Would not have been done without 
a brownfield assessment grant.
    Jersey Gardens Mall, now called a Simon mall, recently 
announced it is going to add 411,000 square feet with an 
expansion completed in 2017. We have a workforce innovation 
center providing job placement, soft skills training, and ESL 
education to residents. It also features a 4.8 megawatt super--
SunPower rooftop solar system which began producing power in 
February of 2012, and it can now produce power for 564 homes 
equivalent.
    The brownfields law and program has a proven track record 
of leveraging private sector investment and creating jobs. 
Unfortunately, the EPA has had to turn away a lot of highly 
qualified applicants, as evident by the questioning and the 
testimony of the first panel. The challenge that our 
communities face now is that many of the easy brownfield sites 
have been developed and what now remains are the more difficult 
brownfield sites, the ones that we like to call medium to dark 
brown brownfield sites.
    The Conference of Mayors believe that some minor changes, 
some of the recommendations that we include for the new 
brownfields law: Fully funding the Brownfields Program, 
allowing reasonable administrative costs, clarifying 
eligibility of publicly owned sites acquired before 2002, 
removing barriers from mothballed sites, and encouraging 
brownfield cleanups by good Samaritans.
    Other recommendations include creating a multipurpose task 
force grant--a multipurpose grant to make the program more 
flexible and market friendly. The way the program works now is 
if a city applies for various grants, identifies the properties 
where the money will be spent. The problem naturally with that 
scenario is the flexibility enough for real marketplace 
situations. A city may have multiple developers and businesses 
who are interested in several brownfield properties.
    What cities could use is a multipurpose grant to allow them 
to assess multiple properties and do cleanup on the properties 
chosen for redevelopment. If a city has to apply for a grant, 
wait 6 months to a year to see if they get funding, it 
naturally hinders our opportunities.
    Increasing cleanup grant amounts would also be beneficial. 
I know we differ from the EPA on this, but in the Conference's 
opinion, many of the easy brownfields are already being done. 
What is tougher are the brownfields that are more complicated 
due to a variety of factors, including the level of cleanup 
needed. And for some of the cleanup grants, we would like an 
increase in the amount to be $1 million. In special 
circumstances, $2 million.
    I would like to thank you, Chairman, and the members of the 
subcommittee for the opportunity to testify. Brownfields 
development is a win/win for everyone involved. And the 
reauthorization of this law could be a top priority of this 
Congress.
    I thank you for the opportunity. And I am available for 
questions, Mr. Chairman.
    [The statement of Mr. Bollwage follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you, Mayor. And it is great to have you.
    I would now like to turn to Mr. Clark Henry, owner of CIII 
Associates. Again, your full testimony is already in the 
record. You have 5 minutes. Welcome.

                    STATEMENT OF CLARK HENRY

    Mr. Henry. Great. Thank you very much, Chair Shimkus and 
Ranking Member Tonko, for having me here. It is an honor to 
speak to you as well with both the people to my left and right. 
It is an honor to share this table.
    I have been working on brownfield redevelopment for the 
past 15-plus years, both as a public service--public servant 
working for the city of Portland, Oregon managing the 
Brownfields Program, as well as a consultant working with 
municipalities very small from the Village of Sutherland, 
Nebraska to the City of Boston, Massachusetts, as well as 
community-based organizations, developers, and property owners 
all over the country.
    I am intimately aware of working with the Brownfields 
Program and the power that it has. My overwhelming support for 
this program and the reauthorization is demonstrated in the 
success that we have had in Portland and across the country. I 
have administered over $2 million of EPA assessment in 
brownfield cleanup grants, worked very closely with the job 
training grantees, as well as revolving loan fund recipients; 
all of which have leveraged multifamily housing, additional 
commercial developments, light industrial developments, and job 
creation.
    I lightheartedly refer to the brownfield effect. With the 
EPA Brownfields Program involved, is we have brownfield 
jujitsu. We turn what are liabilities into assets. We kind of 
reverse the negative effect that they have on our communities 
environmentally and economically at the same time. The theme 
here too is how these grants help local municipalities and the 
Federal Government serve as really strong partners for private 
sector redevelopment.
    The Brownfields Program has been, in my observations, 
nationally the best model of how this has been working. I do, 
as well as previous testimony, have some recommendations how we 
could further refine some of this. The area-wide planning 
program that Administrator Stanislaus brought to the EPA from 
New York and is administering in the EPA now, I believe, should 
be made a permanent part of the Brownfields Pprogram. It is 
really a response to how we put properties and entire districts 
and corridors in the pipeline for development.
    It never shocks me when you start planning for a brownfield 
property that no onehas been interested in for decades, you 
start planning for it, and everybody wants it. So perception 
here on both sides is really important.
    The nonprofit eligibility too, for me, I think is a very 
important addition. They are not only more than capable of 
administering these grants; they are really essential private 
sector partners, particularly in the creation of workforce 
housing.
    I do believe that allowing some small portion of 
administrative costs is a very positive change under the grant. 
Though I do believe that local municipalities should bear the 
burden of operating programs, but when we allow them--when we 
allow some administrative costs, we go from administering a 
grant to running a program. And in my experience with the city 
of Portland and having the time to broker relationships between 
developers and property owners and advocate for and help 
projects get through regulatory process at the State level, the 
outcomes are very compelling, and you speed things up and you 
make things happen that otherwise wouldn't.
    I am a strong proponent for renewable energy on these 
facilities. Not necessarily allocating specific resources for 
that, but I really do believe that they provide substantial 
benefit.
    I think we do need to clarify the liability for public 
municipalities, not just making them available--or eligible for 
ownership after 2002, but under circle of liability, 
involuntary acquisition, such as through tax foreclosure, they 
are protected under statute, but for voluntary they are not. 
And I believe that widening that would really help 
municipalities take on projects that they are hesitant to now.
    The multipurpose grants allowing us to move from assessment 
to cleanup, from my perspective, I was dying for these things 
at the city of Portland and it would have sped some things up. 
Though it might not be universally applicable, I really do 
think it should be an option. And I would love to see the 
Federal tax incentive brought back that expired in 2011.
    And then the last little change isn't necessarily a change 
to the administration or the grant program itself, but it is 
considering what happens after community planning processes are 
assessed and some cleanups are done. And exploring partnerships 
with these new--with new organizations and community-based 
organizations is really essential here. And then there are some 
new tools because the JOBS Act and the SEC rules allowing 
crowdsourcing and crowdfunding on an equity base is--has some 
really strong potential to actually leverage financing for a 
project otherwise is inaccessible.
    And I conclude by really encouraging the reauthorization. 
And I really want to say that this is working for the 
environment, society, and economy together to make our--bring 
our municipalities stronger as well as a stronger United 
States. Thank you.
    [The statement of Mr. Henry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you very much for your testimony. And 
thanks for the recommendations. That is kind of what we are 
looking for too in all this process.
    So now I would like to turn to Amy Romig, a partner at 
Plews, Shadley, Racher, and Braun.
    Ms. Romig. Perfect.
    Mr. Shimkus. And you are recognized for 5 minutes.

                   STATEMENT OF AMY E. ROMIG

    Ms. Romig. Mr. Chairman, and members of the subcommittee, 
thank you for inviting me here today so that I can share my 
views on the EPA's Brownfields Program.
    So based upon the committee questions for the first 
panelist, Mr. Stanislaus, I am very pleased to see that all of 
the committee members obviously support the Brownfields 
Program, because this program is essential and vital to the 
redevelopment of our economies in our small towns and cities.
    As Chairman Shimkus said, I am an attorney with the law 
firm of Plews, Shadley, Racher, and Braun in Indianapolis, 
Indiana. And I represent private businesses, not-for-profit 
entities, and other private shareholders who develop these 
types of brownfield properties. We have also represented 
various cities and towns within Indiana who have taken 
advantage of the Brownfields Program. And we also represent 
economic development associations that would love to be able to 
take advantage of the Brownfields Program.
    The Brownfields Program is important to private 
shareholders because it allows knowledge to be found about 
these sites that prohibits their development at this current 
point in time. I will be quite frank. When it comes to 
investors, they want to make money. And they are looking at 
buying properties that they can develop that will be 
profitable. And, quite frankly, they shy away from those 
properties that have unknown risks. They have to be able to 
make the calculation: Can I make money on this? And if you have 
unknown environmental liability, they simply won't make that 
investment.
    So by giving this money to the cities and towns, you are 
increasing the knowledge base that helps overcome the burden of 
developing these properties. It makes it much more likely that 
investors will take these risks and invest their money.
    We heard a lot from Mr. Stanislaus about the leveraging 
that happens. And this is precisely what happens when you put 
this money in the investment of knowledge, is that you make 
private people willing to invest even more of their money in 
these projects.
    I would like to give an example of one of the projects that 
my firm worked on. There was a blighted piece of property on 
several acres along an interstate in Indianapolis, and the 
neighboring properties were getting run down. No one wanted to 
be around this property. And the State of Indiana and the city 
of Indianapolis invested a couple of hundred thousand dollars 
in helping clean it up so that an out-of-state business would 
come in and invest in a truck stop.
    Over the last several years, more than $8 million has been 
reinvested in property taxes, now that they are being paid on 
this property, and sales tax because people are coming to this 
property. And, quite frankly, the value of the surrounding 
properties has increased and more development is occurring in 
this area simply because the State and the city invested a 
little bit of money. That is a 20-fold increase in the 
profitability of the seed money that the Brownfields Program 
put into this site. And more sites like this can happen if you 
increase the flexibility and the money available to these 
communities.
    We have heard a lot about how can you improve the 
Brownfields Program. And, quite frankly, we do a really great 
job in Indianapolis. But the smaller towns don't do as well 
because they do not have the sophistication or the knowledge. 
While Indianapolis can afford to have a brownfields 
coordinator, the smaller towns can't. The person who is 
handling these things is often an engineer who is worried about 
how do I get the trash picked up and how do I keep the roads 
going?
    So by allowing some administrative costs to your opening up 
the program to these smaller communities who need the most 
help, this will allow these communities to have more 
information about their sites because knowledge is power, as I 
talked about before. And it will help them make the contacts 
and meet the developers that will bring money to their 
communities.
    One of the other issues that is really problematic and 
hindering brownfield development is transactional costs in time 
of both money and in time, because time is money. If I am a 
developer and I can go develop a greenfield site and get a 
return on my investment in 6 months, that is much more 
attractive to me than working through the Brownfields Program 
trying to get the State and the various agencies to approve my 
permits and not getting a return on my investment for several 
years. And the reason this is happening is, quite frankly, that 
the agencies don't have the resources.
    Our Indiana Department of Environmental Management does a 
great job and they have a lot of skill and sophistication, but 
they have limited resources. So by allowing the Brownfields 
Program to use some of the money for administrative costs, you 
are going to provide and overcome the problems with time. 
Because, quite frankly, more people will be allowed to have 
this knowledge and it will speed the process up and it will 
make it more attractive to developers.
    With that, I would like to thank you again for inviting me. 
And when we are finished with testimony, I would be pleased to 
answer any questions you have.
    [The statement of Ms. Romig follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you for coming. I just--I represent 
Danville, Illinois and Marshall, Illinois, which is closer to 
Indianapolis than my own house. So I do appreciate, and, 
unfortunately--well, fortunately, have to fly into Indianapolis 
sometimes to get to the eastern part of my district. So I know 
the community better than I used to.
    So now let me turn to Veronica Eady, a vice president and 
director of Conservation Law Foundation. We are glad to have 
you here. You are recognized for 5 minutes.

                   STATEMENT OF VERONICA EADY

    Ms. Eady. Mr. Chairman, thank you for the invitation. I am 
really pleased to be here and speaking to the committee.
    Conservation Law Foundation, founded in 1966, is a member-
supported environmental advocacy organization. We are 
headquartered in Boston with five offices throughout New 
England and we protect New England's environment for the 
benefit of all people. We use law, science, and the market to 
create solutions that preserve our natural resources, build 
healthy communities, and sustain a vibrant economy. And while I 
am a lawyer, we are fully multidisciplinary. We employ 
economists, scientists, planners, and investment fund managers.
    We support--and I will refer to my organization, 
Conservation Law Foundation interchangeably as CLF. CLF 
supports, without reservation, EPA and its Brownfields 
Programs. Nonprofit organizations have long played a critical 
role in facilitating the cleanup of brownfield sites. My own 
organization has convened community planning charrettes helping 
residents to articulate their vision for longstanding 
contaminated sites. We have also provided technical assistance 
to city and towns, helping them understand their legal options 
under State and Federal brownfields law.
    And as a founding member of the Massachusetts Smart Growth 
Alliance, CLF is working in broad coalition with other 
stakeholders to secure funding that would replenish 
Massachusetts' Brownfields Redevelopment Fund, which is kind of 
the corollary to the EPA program.
    Massachusetts has many brownfield sites that have 
contamination that predates the industrial revolution. And I 
want to take a moment to talk a minute about the city of New 
Bedford, which is one of my favorite cities in Massachusetts, 
iconic and, of course, the site of Herman Melville's Moby Dick.
    Last year, CLF undertook a comprehensive investigation into 
the nature and extent of contamination in New Bedford and what 
potential exposure there might be for residents. We focused on 
an environmental justice analysis, which involved studying 
census and other demographic data, to determine whether low-
income communities and communities of color bore a 
disproportionate environmental burden.
    We spoke with nearly 2 dozen residents, city officials, 
environmental regulators and others. And although New Bedford 
has received State and Federal brownfields funding in the past, 
one city official commented that the biggest environmental 
justice issue still facing the city continues to be the lack of 
funding available to identify more unaddressed contaminated 
sites.
    New Bedford's pollution dates back to the mid-1700s when 
the economy shifted from agriculture to whaling and whaling-
related industry, such as oil processing, soap making, and ship 
building. These early industries likely admitted into the 
environment oils, arsenic, mercury, cyanide, biological waste, 
polycyclic aromatic hydrocarbons, and other caustic substances 
that were disposed directly into the soils and waterways. After 
that we had the textile industry a century later. That was 
displaced by the electronics industry. So we have layer and 
layer upon pollution in New Bedford.
    New Bedford's population is about 9,500. New Bedford's 
median income is less than 50 percent of the State average. 
Some of the poorest residents literally live across the street 
from sites that have been mothballed because the industrial 
operations have long decades gone, nowhere to be found, and the 
city is left holding the bag.
    In some cases pollution has migrated into the homes of 
people. In some cases--in one case in particular, 84 homes had 
to be relocated. And these homes were on a site where 
currently, even today, there are two public schools on the 
site. The Department of Public Health had to come in and do an 
assessment to find out if there was any special--you know, any 
spikes in cancer rates and things like that resulting from the 
contamination. And, of course, New Bedford is only one of many 
similarly situated cities and towns in the country.
    Brownfield redevelopment is for many cities and towns the 
only form of developable property, particularly in New England, 
because of limited inventories of undeveloped land. And in 
order to develop these brownfields, they need access to 
funding. Access to further brownfield funding and technical 
assistance would be a major step for these communities.
    New Bedford does have some good news. There have been some 
brownfield sites, many, actually, that have been redeveloped. 
And there are a couple that are noteworthy. I will just name--
one was a supermarket development that went into a former mill 
site and created 600 jobs. There is a marine commerce terminal 
project that will facilitate renewable energy and that is going 
to create 200 permanent jobs.
    So in conclusion, I want to once again say how fully CLF 
supports EPA and these programs. I appreciate you being here--
or your invitation to me, and I look forward to questions.
    [The statement of Ms. Eady follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you very much.
    Now I will start with a round of questions. I will 
recognize myself for 5 minutes. And the first question will go 
to Ms. Romig.
    In your written testimony, it takes on what is probably a 
fairly common notion that the Brownfields Program creates a 
windfall to private developers and investors. Would you please 
explain why that you believe that is not true?
    Ms. Romig. These developers and investors still have to put 
their own time and money into these projects. They have 
significant skin in the game. And when they are tackling these 
sites, these sites are more expensive to deal with than if they 
were dealing with a greenfield.
    So the Brownfields Program provides a little bit of seed 
money, but it is certainly not making anyone rich. They are not 
making a tremendous amount of money on it. And in fact, a lot 
of these projects, they don't make as much as they might 
possibly make if they were developing a greenfield. So they are 
still investing a significant amount of time and money of their 
own. So it is not a windfall.
    Mr. Shimkus. Yes. And I appreciate that time is money, how 
quickly can you develop a site. Also, everyone has talked about 
risk. Right? There is some risk. And I think we in Congress are 
starting to understand that a little bit more as far as risk 
and reward and time and all the other stuff. And this is a 
perfect example.
    Let me go to Mr. Anderson. As you know, the brownfields law 
requires, and this was asked earlier to Mr. Stanislaus, that 25 
percent of the funds appropriated to the EPA for activities 
authorized under CERCLA or Superfund 104(k), be used to 
characterize, assess, and remediate petroleum brownfields. Do 
you still--do you think that this petroleum set-aside is still 
necessary?
    Mr. Anderson. Yes, sir. And it is difficult to--you know, 
when you get an assessment grant, as a city does, and you are 
trying to go through the property, if you are trying to 
designate exactly 25 percent, it really hampers you. If you 
have got the flexibility of the full amount and--you are going 
to run into petroleum on almost all these brownfield sites 
regardless. So I don't think it is necessary any longer, sir.
    Mr. Shimkus. And I think that concurs with what Mr. 
Stanislaus also testified.
    Mr. Anderson. Yes, sir.
    Mr. Shimkus. Mayor, in your testimony states that the, 
quote/unquote, easy brownfield sites have already been 
developed and what now remains are more difficult, and you used 
the terminology ``darker brown,'' which I am going to start 
using. I think it is a good terminology. Your testimony notes 
that minor changes to the brownfields law would help spur on 
additional redevelopment projects and economic growth. Can you 
walk us through some--your opinion regarding what type of 
changes would be helpful?
    Mr. Bollwage. The most important one would be clarifying 
some eligibility, as well as flexibility on the grant funding. 
If the moneyis targeted for assessments or targeted for 
cleanup, oftentimes the developer comes in and the money could 
be used in a better way in some other category. And I think 
giving us flexibility would help us tremendously.
    Mr. Shimkus. So explain flexibility. Tell us where are you 
constrained and what more flexibility----
    Mr. Bollwage. The assessment grant that we have had in the 
city of Elizabeth was used excellent to develop an 
identification of 50-some-odd brownfield sites. Now that we 
have identified the brownfield sites and there is still 
assessment grants out there, it is important to know that we 
could still apply for assessment grants, but we understand what 
is in all of those properties.
    So if we can use assessment money for cleanup costs, or if 
we can use assessment money for some type of infrastructure 
that is necessary to get to the brownfield site--when we built 
the Jersey Gardens Mall, it was on a 166-acre site. The 
developer came to me and said: You know, I will remediate this 
mall, but you need to build the road to get there. And the road 
to get there cost $10 million. So I built a road in 1996 to get 
to a dump. And I could see the campaign literature against me 
that I built a road to a dump and then nothing happened. So the 
flexibility would be important, Mr. Chairman.
    Mr. Shimkus. Yes. We did have a bridge to nowhere debate 
here----
    Mr. Bollwage. That is another State, though.
    Mr. Shimkus [continuing]. In Washington, too. So Mr. 
Pallone remembers that.
    And my last question will go to Mr. Henry. In your written 
testimony, you discussed the need for area-wide planning. Can 
you walk us through what that means when you say area-wide? Why 
you belive it is important to make it a permanent feature of 
the Brownfields Program.
    Mr. Henry. Absolutely. You know, in the early days of 
administering these grants and working through doing 
assessments and cleanup planning, you know, when you are doing 
an assessment and trying to plan for a cleanup, the most 
important thing that you--that the brownfield community 
realizes, you have to know what you are planning for. You have 
to understand what kind of redevelopment you are looking at.
    And then you also recognize that just by doing one 
property, you are probably operating in a corridor or a 
district with multiple properties. And by knocking down this 
one domino, you are probably catalyzing some additional 
investment. But you really also have to take into account--and 
some of these--and it ties also into the other complications, 
that the easy sites are gone. The other--some of these other 
complications are related to adequate infrastructure, other 
partnerships that could be out there and what is the community-
supported vision?
    So in an area-wide planning process, we recognize that 
developers and organizations and the stakeholder group, in 
general, was looking for a vision that really indicated the 
city is a solid partner and willing to make the investments, 
like building roads and putting in additional infrastructure. 
Area-wide planning queues up multiple sites and entire 
districts for that investment and involves the community in 
helping decide what that vision is.
    Mr. Shimkus. And that, should we also maybe link them up in 
the development program?
    Mr. Henry. Yes. And so--yes, it is--whether the assessment 
comes first or area-wide planning--it has happened in different 
ways--but they are very complementary.
    Mr. Shimkus. Yes. Excellent. Thank you.
    My time has expired. The Chair now recognizes the ranking 
member of the subcommittee, Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And, again, welcome to all of our witnesses.
    Mr. Henry, what has your experience with area-wide planning 
been?
    Mr. Henry. My first experience, I supported EPA's 
brownfield office in supporting the first round of area-wide 
planning grantees, helping them transition their plans into 
more implementation-based documents and strategies. And then I 
recently concluded a brownfield area-wide planning project in 
Redmond, Oregon, and one in Hickory, North Carolina.
    Mr. Tonko. And when you get into an area-wide planning, I 
can imagine there might be some burdens and there are certainly 
benefits. Can you identify each of those, maybe from experience 
what some have been?
    Mr. Henry. Of the burdens and benefits?
    Mr. Tonko. Yes.
    Mr. Henry. So with brownfields, there is a really large 
perception issue. And when you go into public and you say: We 
are going to identify brownfields and we are looking at your--
and you show a map and they have people's properties up there, 
red flags go up in their heads. So one of the burdens you have 
to do is say, we are really not--we are not here to pin you and 
say that you have contamination.
    First, the definition of a brownfield doesn't say you are 
contaminated and it doesn't say you are liable for it. And so 
you really have to--there is a lot of communication that has 
to--you have to undertake to make sure they understand you are 
creating a vision and you are helping them realize their goals 
as well.
    And the benefit is, once you have effectively communicated 
that strategy to them, they are very solid partners to the 
municipalities and their neighbors. And there are people who 
will get in a room and hash out a strategy that previously you 
didn't want to talk together.
    And the plan is that these are also implementation 
strategies at their core. This is about getting investments. So 
you are creating partnerships and staging projects on 
particular properties as catalysts in supporting that show a 
whole spread of things that can happen on these brownfield 
properties.
    Mr. Tonko. In terms of value added, what does area-wide 
planning has the greatest value added provide?
    Mr. Henry. I think it magnifies the effect of the 
Brownfields Program in general.
    Mr. Tonko. OK.
    Mr. Henry. And we stop talking about individual properties 
and we start talking about entire communities and 
neighborhoods.
    Mr. Tonko. And in terms of coming together as an area, is 
it a common contaminant--if there is a contaminant, is it 
common use?
    Mr. Henry. Sometimes you look at--some of these area-wide 
planning projects are occurring in industrial areas that are 
trying to modernize and address--and so the environmental 
issues and infrastructure issues won't be a burden for new 
industry moving in. Other times these are automobile--these are 
like commercial corridors with a lot of automobile-related 
brownfield sites, like small infield gas stations and 
automotive. But, no, you are almost always talking about 
multiple types of contamination.
    Mr. Tonko. OK. And, Ms. Eady, I am grateful, certainly, for 
your cause to recognize the role that these cleanups play in 
promoting environmental justice. Many brownfields are in 
distressed communities that need additional technical 
assistance and capacity building to get the projects done. Can 
you explain the role that nonprofits currently play in 
remediating our brownfields?
    Ms. Eady. Well, a lot of nonprofits are--play the role, 
kind of as Mr. Henry described, leading these planning efforts 
and things of that sort. But we have directly provided 
technical assistance to cities and towns, whether it is in 
describing the liability protections or what the appropriate 
end uses are for the level of contamination in the property.
    We are working in coalition with a bunch of groups in a 
mill town in Massachusetts where there are some community 
development corporations that are involved in other kind of 
quasi-nonprofit/quasi-public organizations to do broad planning 
efforts like the type that would be done in area-wide planning.
    Mr. Tonko. Do you think that there is a larger role for 
nonprofits to play in working on the assessment and cleanup 
efforts?
    Ms. Eady. I think that there is absolutely an expanded role 
that can be played. And I think that were nonprofits to have 
access to EPA public brownfield funding, I think that the role 
would probably expand and evolve.
    My organization has a lot of close ties, particularly at 
the community level. And I do believe that if funding were 
available, we would be able to strike partnerships with some of 
these communities and play the more scientific role and 
advisory role.
    Mr. Tonko. Thank you. And if I could just have you across 
the board state what you think the caps ought to look like. And 
I would offer the caveat that we wouldn't reduce the amount of 
award winners but appropriately increase the overall pot. But 
what do you think we should do with the caps? If you could do 
that across the board, please. And start with Mr. Anderson.
    Mr. Anderson. What did we use earlier? A million, I 
believe, was one of the proposed caps. A million would probably 
be a good cap. That is a lot of money to spend, and you do have 
to have quite a bit of prior planning. But when you get these 
coal gasification sites, like you mentioned in your roundtable, 
they are very challenging to deal with and they can cost much, 
much more.
    Mr. Tonko. Thank you. It is good to see you again, by the 
way.
    Mayor?
    Mr. Bollwage. Yes. Mr. Tonko, in my testimony I said a 
million dollars. And then also for special circumstances to go 
to $2 million.
    Mr. Tonko. And, Mr. Henry?
    Mr. Henry. Yes. I believe with the caveat that the number 
of recipients wouldn't be decreased, I think a million dollars 
is a reasonable number.
    Mr. Tonko. Ms. Romig?
    Ms. Romig. I find a million is reasonable as well.
    Ms. Eady. Yes. I agree, and also as Mr. Henry provided.
    Mr. Shimkus. Just pull that mike over again.
    Ms. Eady. I agree, and also with Mr. Henry's proviso that 
it doesn't shrink the number of grants.
    Mr. Tonko. I hear you. We don't want to do that.
    Ms. Eady. In a perfect world, yes.
    Mr. Tonko. OK. Well, you sound like you are getting along. 
So that is great. Thank you very much.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the ranking member of our full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to first ask 
Mr. Anderson a question and then go to Mayor Bollwage.
    Mr. Anderson, you note in your testimony--I know you 
touched upon this, but I wanted to ask it directly. You note in 
your testimony that the average grant award has declined. Do 
you think an increase in the cap on individual grants would 
assist communities, particularly as they try to revitalize 
sites with more complicated cleanups? I know you answered it, 
but I would like to ask you that directly.
    Mr. Anderson. The caps for the individual communities or--
--
    Mr. Pallone. On individual grants, yes.
    Mr. Anderson. I think it will help the communities--you 
know, it is hard to say. Most of the communities are going to 
go for the maximum amount because of the difficulty in getting 
to that point. So why would you go for less than whatever the 
maximum is for a specific grant, such as $200,000? Some of the 
grants that I did mention are the 128(a), which is a subset. 
And those have decreased as more entities have come to the 
table, the States, the tribes, and the territories. But I hate 
to say it: More money does help.
    Mr. Pallone. OK. Now let me go to Mayor Bollwage. You 
mentioned your town, Elizabeth, received a grant under the 
regional pilot program in the 1990s. Correct?
    Mr. Bollwage. Yes.
    Mr. Pallone. We heard from Mr. Stanislaus earlier that the 
EPA has started another pilot program, the multipurpose grant 
program to give communities more flexibility. Do you think that 
having that greater flexibility, like that afforded to 
communities with the multipurpose grants, would assist them 
better in cleaning up the contaminated sites?
    Mr. Bollwage. Yes, I do, Congressman. Also, you know, the 
city of Elizabeth is currently using two 2011 EPA community-
wide assessment grants for hazardous substances and petroleum 
in our midtown redevelopment area. So in answer to your 
question, I believe yes.
    Mr. Pallone. I mean, I think that the flexibility is 
valuable. Then the most important issue, which was mentioned 
repeatedly today, is the need for adequate funding. I just like 
you to comment on, you know, higher funding levels for the 
program, and, you know, what it would mean to Elizabeth in 
redeveloping brownfield properties.
    Mr. Bollwage. Congressman, higher funding levels could 
allow for some reasonable administrative costs, which was 
testimony not only here, but also by Mr. Stanislaus. Also, one 
of the testimonies on this panel was addressing mothballed 
sites, which are clearly forgotten. I don't know New Bedford as 
well, but we have them in Elizabeth as well where they are just 
totally forgotten and they sit there. Additional funding would 
help us address mothballed sites. And also, the clarifying of 
the eligibility of the publicly owned sites before 2002, 
financing would help address that issue as well, Congressman.
    Mr. Pallone. All right. Thanks a lot.
    Ms. Eady, would you agree or comment on what the mayor 
said?
    Ms. Eady. I agree with the mayor. And I was just thinking 
about what other contexts additional funding, particularly to 
the nonprofit sector, would be helpful. And in thinking about 
New Bedford, one of our partner organizations in New Bedford 
called the Buzzards Bay Coalition was given a technical 
assistance grant to work on one of New Bedford's Superfund 
sites. This was the New Bedford Harbor Superfund site. And with 
the technical assistance grants that they were able to get, 
they were able to directly support the local community so the 
community understood the process, which, of course, is very 
complex, and, you know, that they understood the science.
    And I think that that is a--really a critical role. And it 
is really important to bring the community along, and 
particularly in New Bedford where, because there is so much 
contamination, there is this really amazing level of distrust. 
And I imagine that this is not unique to other parts of the 
country.
    And so I think that with nonprofits able to access funding, 
we could play an important role so that communities wouldn't 
be--would be less likely to oppose redevelopment projects.
    Mr. Pallone. All right. Thanks a lot. You know, I was--I 
really enjoy hearing how the Brownfields Program has helped so 
many communities. I don't know if I mentioned to my colleagues, 
I don't actually represent Elizabeth where Mayor Bollwage is, 
but just south is Carteret, which is a much smaller town.
    But if you think about it, Mayor, I mean, same phenomenon. 
I mean, you know, how many sites in Carteret have been cleaned 
up? And there again, it is a much smaller community that 
doesn't--you know, probably even has less resources because of 
its size. And when we talk about adequate funding, it is so 
important not only for Elizabeth, for a lot of the smaller 
towns.
    Because New Jersey, Mr. Chairman, has--you know, we have a 
lot of towns. And people think of Newark and, you know, larger 
cities. But, I mean, most of the towns I represent have less 
than 40,000 people, but yet they have the same situation as 
Elizabeth. So----
    Mr. Bollwage. Carteret has done a remarkable job on the 
waterfront with the brownfields from the petroleum industry 
years ago, and they have created into warehouses. And Mayor 
Reiman is extremely proud of his efforts in Carteret.
    Mr. Pallone. Yes. I know, it is true. And we have more 
brownfield sites than any other State. I guess that is no 
surprise.
    Mr. Shimkus. I thought you would have had that all cleaned 
up by now. All these years you have been here, I thought you 
would have had that fixed.
    Mr. Pallone. We keep trying.
    Mr. Shimkus. The gentleman yields back his time.
    We want to thank you for coming. And even though there is 
just a few of us left, you do have the chairman of the 
subcommittee, the ranking member of the subcommittee, and the 
ranking member of the full committee. I think that shows our 
interest and the importance of this issue. We look forward to 
working together as we move forward.
    And with that I will adjourn the hearing. Thank you.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

    [Mr. Bollwage's answers to submitted questions for the 
record have been retained in committee files and also are 
available at  http://docs.house.gov/meetings/IF/IF18/20160421/
104837/HHRG-114-IF18-Wstate-BollwageJ-20160421-U1.pdf.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
